                                                             EMPLOYMENT AND TRAINING
                                                             ADMINISTRATION


               Office of Inspector General—Office of Audit




                                                             RECOVERY ACT: DATA QUALITY IN RECIPIENT
                                                             REPORTING




                                                                                Date Issued:   September 27, 2010
02-A12-345-67-890                                                            Report Number:      18-10-002-03-390
U.S. Department of Labor                                    September 2010
Office of Inspector General
Office of Audit
                                                            RECOVERY ACT: DATA QUALITY IN
                                                            RECIPIENT REPORTING

BRIEFLY…
Highlights of Report Number 18-10-002-03-390, to the        WHAT OIG FOUND
the Assistant Secretary for Employment and Training.        Of the five key data elements audited, two recipients
                                                            reasonably reported the amount of Federal funds
WHY READ THE REPORT                                         received, Federal funds expended, project status, and
The American Recovery and Reinvestment Act of 2009          final report status. However, jobs created or retained
(Recovery Act) requires Federal agencies to implement       data was not reported in accordance with §1512
an unprecedented level of transparency and                  reporting requirements. As a result recipients did not
accountability to ensure the public can see where and       provide the most comprehensive and complete job
how Recovery Act funds are being spent. The                 impact numbers available. Furthermore, inaccurate
Employment and Training Administration (ETA)                reporting of jobs created or retained could mislead the
received $4 billion of Recovery Act funds. The majority     public about the number of jobs created or retained,
of these funds, $2.9 billion or 73 percent, was awarded     and prevent meaningful comparisons of the data as a
using the Workforce Investment Act (WIA) formula to         whole.
the 57 states and territories to provide Youth, Adult and
Dislocated Worker employment and training activities.       This occurred because one recipient’s process did not
                                                            make use of the correction period to update its data,
To promote accountability and transparency, recipients      which resulted in the over-reporting of jobs created or
are required to report on the use of recovery funds         retained for one of it’s sub-recipients by 10.52, or 26
under Section 1512 of the Recovery Act (§1512). All         percent. Another recipient did not consider it practicable
prime recipients are required to submit quarterly reports   to collect jobs created or retained for lower-tier
to FederalReporting.gov.                                    sub-recipients, and jobs created or retained was
                                                            underreported by 134.25, or 36 percent, for one of it’s
The audit covered the second quarterly reporting period     sub-recipients.
ending December 31, 2009, and actions taken to
enhance data quality for the third reporting period         We also found that Office of Management and Budget’s
ending March 31, 2010. Our audit sample consisted of        (OMB) guidance can be clarified and enhanced for the
two recipients and four sub-recipients, and was limited     reporting of lower-tier sub-recipient jobs created or
to five key data elements: 1) funds received/invoiced, 2)   retained. In addition, transparency could be optimized
expenditures, 3) number of jobs created or retained, 4)     by ensuring that the FederalReporting.gov website
project status, and 5) final report indicator.              indicates whether expenditures are reported on the
                                                            cash or accrual basis of accounting.
WHY OIG CONDUCTED THE AUDIT
This audit was conducted at the request of Recovery
Accountability and Transparency Board (RATB), to            WHAT OIG RECOMMENDED
determine whether Recovery Act recipient processes          We made two recommendations to the Assistant
for compiling and reporting selected data provide           Secretary for Employment and Training; to instruct one
reasonable assurance of compliance with §1512               recipient to make full use of the correction period and to
requirements.                                               consult with OMB on the issuance of guidance for sub-
                                                            recipient and lower-tier sub-recipient reporting of jobs
The RATB has compiled data and issued a report using        created or retained.
the results of our audit, as well as audits conducted by
the Department of Education, Department of Health &         The Assistant Secretary for Employment and Training
Human Services, Department of Homeland Security,            agreed with the recommendations.
and National Science Foundation.

READ THE FULL REPORT
To view the report, including the scope, methodology,
and full agency response, go to:

http://www.oig.dol.gov/public/reports/oa/2010/18-10-
002-03-390.pdf
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                  Recovery Act: Data Quality in Recipient Reporting
                                     Report No. 18-10-002-03-390
                                                             U.S. Department of Labor – Office of Inspector General




Table of Contents 


Assistant Inspector General’s Report ......................................................................... 1


Results in Brief .............................................................................................................. 2


Objective — To determine whether Recovery Act recipients processes for 

            compiling and reporting selected data provide reasonable 

            assurance of compliance with §1512 requirements............................ 3

         Finding — Recipients generally reported consistent and reliable Recovery 

                   Act data for most of the required data elements; however, 

                   there were problems with the data reported for jobs created or 

                   retained............................................................................................... 3


Recommendations ........................................................................................................ 8


Appendices
         Appendix A Background ..................................................................................... 11

         Appendix B Objectives, Scope, Methodology, and Criteria ................................ 13

         Appendix C Acronyms and Abbreviations .......................................................... 17

         Appendix D Employment and Training Administration's Response .................... 19

         Appendix E Acknowledgements ......................................................................... 21





                                                                    Recovery Act: Data Quality in Recipient Reporting
                                                                                       Report No. 18-10-002-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                  Recovery Act: Data Quality in Recipient Reporting
                                     Report No. 18-10-002-03-390
                                                       U.S. Department of Labor – Office of Inspector General


U.S. Department of Labor                             Office of Inspector General
                                                     Washington, D.C. 20210




September 27, 1020

                               Assistant Inspector General’s Report



Ms. Jane Oates
Assistant Secretary for Employment and Training
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, D.C. 20210


The American Recovery and Reinvestment Act of 2009 (Recovery Act) requires Federal
agencies to implement an unprecedented level of transparency and accountability to
ensure the public can see where and how Recovery Act funds are being spent. The
Employment and Training Administration (ETA) received $4 billion of Recovery Act
funds. The majority of these funds, $2.9 billion or 73 percent, was awarded using the
Workforce Investment Act (WIA) formula to the 57 states and territories to provide
Youth, Adult and Dislocated Worker employment and training activities.

To promote accountability and transparency, recipients are required to report on the use
of recovery funds under Section 1512 of the Recovery Act (§1512). All prime recipients
are required to submit quarterly reports to FederalReporting.gov. After the initial
submission, the agency reviews the data submitted. Reports are then made available to
the public on Recovery.gov.

The audit objective was to determine whether Recovery Act recipient processes for
compiling and reporting selected data provide reasonable assurance of compliance with
§1512 requirements. This audit was conducted at the request of the Recovery
Accountability and Transparency Board (RATB). The RATB has compiled data and
issued a report using the results of our audit, as well as audits conducted by the
Department of Education, Department of Health & Human Services, Department of
Homeland Security, and National Science Foundation.

The audit covered the second quarterly reporting period ending December 31, 2009,
and actions taken to enhance data quality for the third reporting period ending
March 31, 2010. The audit was limited to five key data elements: 1) funds
received/invoiced, 2) expenditures, 3) number of jobs created or retained (full-time
equivalents) 1 , 4) project status, and 5) final report indicator.

1
  The estimated number of jobs was expressed as “full-time equivalents”, which are calculated as total hours worked
in jobs created or retained divided by the number of hours in a full-time schedule, as defined by the recipient.

                                                             Recovery Act: Data Quality in Recipient Reporting
                                                         1                      Report No. 18-10-002-03-390
                                           U.S. Department of Labor – Office of Inspector General


We selected the following two prime recipients: the State of California Employment
Development Department (EDD) and New York State Department of Labor (NYSDOL).
The recipients were awarded $489 million and $169 million, respectively. We also
selected two sub-recipients for each prime recipient: the City of Los Angeles Community
Development Department (LA CDD), San Diego County Workforce Partnership, Inc.
(San Diego County), New York City Department of Labor (New York City), and Suffolk
County Department of Labor (Suffolk County). Our selections were based on funds
received, the number of jobs created or retained, and ETA monitoring reports issued.

The audit included interviews with Department officials for ETA and Office of Assistant
Secretary for Administration and Management (OASAM) located in Washington, D.C.
The audit also included interviews and walk-throughs, both at the recipient and sub-
recipient locations to understand the design of the internal controls related to reporting
§1512 requirements. Interviews were also performed with the respective regional ETA
officials to determine their roles as it relates to §1512 reporting. We also performed
analytical procedures, such as reasonableness checks of the selected key data
elements to identify possible anomalies and data problems.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audits to obtain sufficient and appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provided a reasonable basis for our finding and conclusions based
on our audit objective.

RESULTS IN BRIEF

Of the five key data elements we audited, the two recipients reasonably reported the
amount of Federal funds received, Federal funds expended, project status, and final
report status. However, jobs created or retained data was not reported in accordance
with §1512 reporting requirements. This was because EDD’s process did not make use
of the correction period, to update its data and NYSDOL did not consider it practicable
to collect jobs created or retained for lower-tier sub-recipients. The jobs created or
retained for one of EDD’s sub-recipients was over-reported by 10.52, or 26 percent, and
one of NYSDOL’s sub-recipients under-reported jobs created or retained by 134.25, or
36 percent. As a result, recipients did not provide the most comprehensive and
complete job impact numbers available. Furthermore, inaccurate reporting of jobs
created or retained could mislead the public about the number of jobs created or
retained, and prevent meaningful comparisons of the data as a whole.

We also found that Office of Management and Budget (OMB) guidance can be clarified
and enhanced for reporting lower-tier sub-recipient jobs created or retained, and
transparency could be optimized by ensuring that the FederalReporting.gov website
indicates whether expenditures are reported on the cash or accrual basis of accounting.
Finally, we identified a best practice to consider for widespread adoption. To ensure
complete, accurate and timely reporting to the prime recipient, one sub-recipient
implemented an internal system that requires all invoices to go through a three-tier

                                                 Recovery Act: Data Quality in Recipient Reporting
                                             2                      Report No. 18-10-002-03-390
                                          U.S. Department of Labor – Office of Inspector General


review process by the program office, finance office, and comptroller before the data is
submitted to the state.

We recommend the Assistant Secretary for Employment and Training instruct EDD to
make full use of the correction period, and consult with OMB on the issuance of
guidance for sub-recipient and lower-tier sub-recipient reporting of jobs created or
retained.

In her response to the draft report, the Assistant Secretary for Employment and Training
stated that ETA regional staff have instructed EDD to make full use of the correction
period to ensure the reasonableness of the data reported to FederalReporting.gov. The
Assistant Secretary stated she will consult with OMB for more definitive guidance to
eliminate any ambiguity regarding sub recipients’ reporting of jobs created and retained.
The Assistant Secretary’s response to the draft report is included in it’s entirety in
APPENDIX D.


RESULTS AND FINDING

Objective — To determine whether Recovery Act recipients processes for
            compiling and reporting selected data provide reasonable
            assurance of compliance with §1512 requirements.

Finding — Recipients generally reported consistent and reliable Recovery Act
         data for most of the required data elements; however, there were
         problems with the data reported for jobs created or retained.

This audit was conducted at the request of RATB. The RATB has compiled data and
issued a report on September 13, 2010, using the results of our audit, as well as audits
conducted by the Department of Education, Department of Health & Human Services,
Department of Homeland Security, and National Science Foundation.

To fully answer the objective, RATB will be reporting, as we are, on the following
questions:

   1. Did Recipients Report in Accordance with §1512 Reporting Requirements?

   2. Could the OMB and Agency Guidance Be Further Clarified and Enhanced?

   3. Could Transparency Be Optimized under the Current Reporting Data Model?

   4. Were There Any Lessons Learned or Best Practices Identified for Widespread
      Adoption?




                                                Recovery Act: Data Quality in Recipient Reporting
                                            3                      Report No. 18-10-002-03-390
                                                   U.S. Department of Labor – Office of Inspector General


Did Recipients Report in Accordance with §1512 Reporting Requirements?

The two recipients reasonably reported the amount of Federal funds received, Federal
funds expended, project status, and final report status. However, jobs created or
retained was not reported in accordance with §1512 reporting requirements. This was
because EDD’s process did not make use of the correction period to update its data,
and NYSDOL did not consider it practicable to collect jobs created or retained for lower
tier sub-recipients. Moreover, OMB guidance could be clarified and enhanced regarding
reporting lower-tier sub-recipient job estimates 2 . As a result, recipients did not provide
the most comprehensive and complete job impact numbers available. Furthermore,
inaccurate reporting of jobs created or retained could mislead the public about the
number of jobs created or retained, and prevent meaningful comparisons of the data as
a whole.

EDD

EDD did not make updates to jobs created or retained, after the initial submission of
jobs data to FederalReporting.gov. EDD had a process in place for §1512 reporting, but
did not have formal written internal policies and procedures. Review of the process
found that EDD did not make use of the correction period for updating jobs created or
retained when corrected data became available. The jobs created or retained for San
Diego County, a sub-recipient were over-reported by 10.52, or 26 percent, but EDD did
not revise the data during the correction period allowed by OMB.

OMB M-10-08, Updated Guidance on the American Recovery and Reinvestment Act –
Data Quality, Non-Reporting Recipients, and Reporting of Job Estimates, dated
December 18, 2009 section 5.2 states:

        Effective February 2, 2010, the FederalReporting.gov solution will be open
        for corrections of all data submitted for the quarter ending
        December 31, 2009. Recipients will have the ability to make corrections
        up until the start of the next reporting period. For example, from
        February 2, 2010 through March 31, 2010, recipients will have the ability
        to correct data for the quarter ending December 31, 2009.

EDD’s process for compiling §1512 data included the receipt of sub-recipient’s jobs
created or retained data on a quarterly basis. EDD officials stated initial jobs created or
retained data were based on estimated hours worked. They stated a visual comparison
between the previous and current quarter’s number of jobs created or retained was
performed. This was a reasonableness test for compliance with OMB’s updated
guidance M-10-08, which modified jobs created or retained reporting from a cumulative
to quarterly basis.




2
 For details see page 6, Could the Office of Management and Budget (OMB) and Agency Guidance Be Further
Clarified and Enhanced?
                                                         Recovery Act: Data Quality in Recipient Reporting
                                                     4                      Report No. 18-10-002-03-390
                                            U.S. Department of Labor – Office of Inspector General


NYSDOL

NYSDOL’s policy for its sub-recipients did not include the collection of jobs created or
retained for lower tier sub-recipients. This was because NYSDOL did not consider it
practicable to collect jobs created or retained for lower-tier sub-recipients. New York
City, a sub-recipient, did not include 134.25 (36 percent) jobs created or retained that
were readily available from lower tier sub-recipients.

NYSDOL had formal written internal policies and procedures for §1512 reporting. While
its processes were manual, NYSDOL used a multiple-level review process, which
required internal certifications following each level of review attesting to the accuracy,
completeness, and timeliness of the selected data elements. NYSDOL calculated its
administrative jobs created or retained and also received data from sub-recipients.
NYSDOL performed an initial review of sub-recipient jobs created or retained data,
which was documented via a tracking spreadsheet. The spreadsheet was used to
identify any errors or anomalies. A secondary review was performed to ensure all errors
initially noted had been resolved.

NYSDOL’s policy did not include the collection of jobs created or retained for lower-tier
sub-recipients. NYSDOL was advised by external auditors not to include this information
and did not instruct its sub-recipients to include the number of jobs created or retained
for lower-tier sub-recipients.

OMB did not definitively instruct recipients to report jobs created or retained for lower
tier sub-recipients. However, as indicated below, the OMB guidance states that
recipients must include an estimate of jobs created and retained by subrecipients and
should collect information from all sub-recipients on the number of jobs created or
retained “to the maximum extent practicable.”

OMB M-10-08, Updated Guidance on the American Recovery and Reinvestment Act –
Data Quality, Non-Reporting Recipients, and Reporting of Job Estimates, dated
December 18, 2009, Part 2 Sections 5.2 (6.) and 5.7 state:

      Prime recipients of grants …must include an estimate of jobs created and
      retained on projects and activities managed by their funding recipients (i.e.
      sub-recipients) … Prime recipients are required to generate estimates of
      job impact by directly collecting specific data from sub-recipients and
      vendors on the total FTE resulting from a sub-award. To the maximum
      extent practicable, information should be collected from all sub-recipients
      and vendors in order to generate the most comprehensive and complete
      job impact numbers available. (Bolding added.)

OMB M-09-21, Implementing Guidance for the Reports on Use of Funds Pursuant to
the American Recovery and Reinvestment Act, dated June 22, 2009, Section 2.2
makes reference to 2 Code of Federal Regulations (CFR) 215 which provides
clarification on the definition of a sub-recipient. As defined in 2 CFR 215.2 (ff) and (gg):


                                                 Recovery Act: Data Quality in Recipient Reporting
                                             5                      Report No. 18-10-002-03-390
                                            U.S. Department of Labor – Office of Inspector General


       Subaward means an award of financial assistance in the form of money, or
       property in lieu of money, made under an award by a recipient to an eligible
       subrecipient or by a subrecipient to a lower tier subrecipient. . . . Subrecipient
       means the legal entity to which a subaward is made and which is accountable to
       the recipient for the use of the funds provided.

New York City reported sub-recipient jobs created or retained data of 372.80. However,
data from lower tier sub-recipients showing an additional 134.25 jobs had been created
or retained was readily available. This data would have been captured had NYSDOL not
made a blanket decision to exclude the reporting of data on lower tier sub-recipient jobs
created or retained. ETA supported NYSDOL’s position that it was not practicable to
collect information for lower-tier sub-recipients. ETA did not issue specific guidance to
enable prime recipients to define the “maximum extent practicable.” ETA allowed the
prime recipient to decide whether to collect jobs data from lower tier sub-recipients.

Could the Office of Management and Budget (OMB) and Agency Guidance Be
Further Clarified and Enhanced?

Reporting guidance could be clarified and enhanced regarding reporting lower-tier sub-
recipient job estimates. OMB did not definitively instruct recipients to report jobs created
or retained for lower-tier sub-recipients. Instead, OMB stated that to the “maximum
extent practicable” information should be collected from all sub-recipients in order to
generate the most comprehensive and complete job impact numbers available. OMB
may need to provide definitive statements on the extent that recipients should report the
estimated number of jobs from sub-recipients. OIG provided this information to RATB
for inclusion in its recommendations for OMB’s consideration.

The definition of a sub-recipient in OMB M-09-21 lacks clarity. When describing who is
required to report under the Recovery Act, paragraph 2.2 of M-09-21 defines “sub-
recipient” as “non-Federal entities that are awarded Recovery funding through a legal
instrument from the prime recipient to support the performance of any portion of the
substantive project or program for which the prime recipient received the Recovery
funding.” Specifying that sub-recipients receive their awards from the prime recipient
would indicate that the definition of sub-recipient for Recovery Act reporting purposes
may only include first-tier sub-recipients and would exclude lower-tier sub-recipients.
However, footnote 6 of M-09-21 makes reference to OMB Circular A-110, Uniform
Administrative Requirements for Grants and Agreements with Institutions of Higher
Education, Hospitals, and other Non-profit Organizations, as codified in 2 CFR 215,
which clarifies the definition of a sub-recipient to include lower-tier sub-recipients.

Moreover, guidance on whether or not to collect data from all sub-recipients was left
open to interpretation. OMB M-10-08, section 5.7 states, “To the maximum extent
practicable, information should be collected from all sub-recipients and vendors in
order to generate the most comprehensive and complete job impact numbers available.”
(Bolding added.) Not defining “the maximum extent practicable” resulted in inconsistent
reporting of job estimates and could mislead the public about the number of jobs
created or retained.

                                                 Recovery Act: Data Quality in Recipient Reporting
                                             6                      Report No. 18-10-002-03-390
                                           U.S. Department of Labor – Office of Inspector General


Could Transparency Be Optimized Under the Current Reporting Data Model?

The Recovery Act required an unprecedented level of accountability and transparency,
including an expectation that the uses of all funds provided under the Act are
transparent to the public, and that the public benefits derived from the use of funds are
reported clearly, accurately, and timely. After considering the five key data elements, we
identified one area where transparency could be enhanced.

OMB’s guidance permits recipients to report expenditures of Recovery Act funds either
on the cash or accrual basis of accounting. However, FederalReporting.gov does not
provide a mechanism to allow recipients to indicate which accounting method was used
when they submit expenditure information. The accounting method used for reporting
expenditures results in timing differences as to when amounts are reported to
FederalReporting.gov. For recipients and/or sub-recipients receiving large Recovery Act
awards, these timing differences can result in significant differences in the reported
expenditure amounts for a particular quarter. As a result, users of Recovery.gov cannot
effectively compare expenditure information reported by recipients using different
accounting methods.

NYSDOL reported expenditures for the period ending December 31, 2009, on the cash
basis of accounting. The expenditure amount reported included total cash payments
made by the recipient and funds drawn and paid to two sub-recipients. Both sub-
recipients requested funding in December 2009 for expenditures made in
November 2009 (reimbursements). Because the recipient reported on a cash basis, it
only reported amounts drawn and disbursed to its sub-recipients during the second
quarter. The sub-recipients’ actual expenditures for December were not included in the
recipient’s second quarter report because the reimbursement for these amounts did not
occur until January 2010. Had the recipient reported expenditures on an accrual basis,
the amount reported in the second quarter would have been approximately $6.7 million
more.

To enhance transparency additional disclosures should be made on the
FederalReporting.gov website indicating whether expenditures were reported on a cash
or accrual basis. We are not making specific recommendations to ETA related to the
cash or accrual basis of accounting since the issue relates to FederalReporting.gov.
However, OIG provided this information to RATB for inclusion in its report.

Were There Any Lessons Learned or Best Practices Identified for Widespread
Adoption?

San Diego County implemented a noteworthy and thorough internal system to ensure
timely reporting to EDD and required all invoices to go through an extensive review
process before being approved. Specifically, before requesting funds from EDD, San
Diego County reviewed invoiced amounts to its Recovery Act sub-recipients budget and
total expenditures to date for allowability. Then, required invoices went through a three-
tier review process by the program office, finance office, and comptroller before the data


                                                Recovery Act: Data Quality in Recipient Reporting
                                            7                      Report No. 18-10-002-03-390
                                          U.S. Department of Labor – Office of Inspector General


was submitted to the state. Lastly, San Diego County compared cash on hand and total
accounts payable before requesting funds.

RECOMMENDATIONS

We recommend that the Assistant Secretary for Employment and Training:

1. Instruct EDD to make full use of the correction period to ensure the reasonableness
   and of data reported to FederalReporting.gov.

2. Consult with OMB on the issuance of guidance for a) sub-recipient and lower-tier
   sub-recipient reporting of jobs created or retained resulting from sub-awards; and b)
   the meaning of current OMB guidance that directs sub-recipients to report such data
   “to the maximum extent practicable.”

We appreciate the cooperation and courtesies that ETA, EDD, and NYSDOL personnel
extended to the Office of Inspector General during this audit. OIG personnel who made
major contributions to this report are listed in Appendix E.




Elliot P. Lewis
Assistant Inspector General for Audit




                                               Recovery Act: Data Quality in Recipient Reporting
                                           8                      Report No. 18-10-002-03-390
               U.S. Department of Labor – Office of Inspector General




Appendices 





                    Recovery Act: Data Quality in Recipient Reporting
                9                      Report No. 18-10-002-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                   Recovery Act: Data Quality in Recipient Reporting
              10                      Report No. 18-10-002-03-390
                                                             U.S. Department of Labor – Office of Inspector General


                                                                                                              Appendix A
Background

The Recovery Act was signed into law by the President on February 17, 2009, to
preserve and create jobs, promote economic recovery, and assist those most impacted
by the recession. The Recovery Act provided the Department with approximately $70.8
billion as of August 19, 2010, to provide worker training, extend and increase
unemployment benefits, and assist and educate workers and employers regarding
expanded access to health benefits.

Table 1: Department of Labor Recovery Act Funding, as of August 19, 2010
                                                       Amount a
Program                                               (millions)   Percent
Unemployment Insurance                                  $65,996       93.17
Training and Employment Services                           3,950       5.58
State Unemployment Insurance and Employment
Service Operations                                           400       0.56
Community Service Employment for Older Americans             120       0.17
National Emergency Grants for Health Insurance
Coverage                                                      40       0.06
Job Corps                                                    250       0.35
Departmental Management                                       80       0.11
Total                                                  $70,836b      100.00
a
 – The amounts other than “Unemployment Insurance and National Emergency Grants for Health Insurance Coverage’ were
obtained from the Recovery Act dated February 17, 2009. The “Unemployment Insurance amount was provided by the
Office of the Assistant Secretary for Administration and Management, and includes amounts made available for Federal and
State Extended Benefits, Extension of Emergency Unemployment Compensation, and Federal Additional Unemployment
Compensation programs. The National Emergency Grants for Health Insurance Coverage amounts were adjusted in United
States Public Law 111-226 (HR1586).
b
 – The total amount does not include $6 million provided to the OIG to provide oversight over the Department’s Recovery
Act activities.



The Recovery Act requires Federal agencies to implement an unprecedented level of
transparency and accountability to ensure the public can see where and how its tax
dollars are being spent. It also specifies that funds be awarded and distributed in a
prompt, fair, and reasonable manner.

To promote accountability and transparency, recipients of Federal contracts, grants, and
loans awarded are required to report on the use of funds under §1512.
FederalReporting.gov serves as the method for submitting reports. This report, due not
later than 10 days after the end of the calendar quarter, must include (1) total amount of
Recovery Act funds received from that agency; (2) amount of Recovery Act funds
received that were spent or obligated to projects or activities; and (3) detailed list of all
projects or activities for which Recovery Act funds were spent or obligated. Recipients
must report on the completion status of the project or activity and provide an estimate of
the number of jobs created and retained by the project or activity.


                                                                    Recovery Act: Data Quality in Recipient Reporting
                                                               11                      Report No. 18-10-002-03-390
                                           U.S. Department of Labor – Office of Inspector General


FederalReporting.gov also serves as the method for Federal agencies to view and
comment on recipients’ reports. Federal agencies are required to continuously evaluate
recipient and sub-recipient efforts to meet §1512 requirements as well as the
requirements of OMB implementing guidance and any relevant Federal program
regulations. When the reporting cycle ends on Day 29 after the end of the quarter,
reports are automatically transitioned from Final Submission Status to Published Status
and all the data for the reporting cycle is published on Recovery.gov by midnight on
day 30.

Several days after the close of the reporting cycle, the Continuous Quality Assurance
period begins. FederalReporting.gov becomes available to recipients and federal
awarding agencies to review and comment on reports, with recipients making any
necessary changes or corrections.

OMB issued 10-08, to improve the quality of recipient reported data. This guidance also
simplified how job estimates are calculated and reported and when recipients will be
able to make their corrections to their filings. This guidance states that recipients will
report job estimates on a quarterly, rather than a cumulative basis.

The RATB tasked the U.S. Department of Education’s OIG with determining whether
Recovery Act recipient processes for compiling and reporting selected data comply with
§1512 reporting requirements. The Federal agencies that participated in the audit were
Education, Health & Human Services, Homeland Security, Labor, and National Science
Foundation.




                                                 Recovery Act: Data Quality in Recipient Reporting
                                            12                      Report No. 18-10-002-03-390
                                             U.S. Department of Labor – Office of Inspector General


                                                                                     Appendix B
Objectives, Scope, Methodology, and Criteria

Objective

Our audit objective was to determine whether Recovery Act recipient processes for
compiling and reporting selected data provide reasonable assurance of compliance with
§1512 requirements.

Scope

The Recovery Act provided the Department with $70.8 billion, to provide worker training,
extend and increase unemployment benefits, and assist and educate workers and
employers regarding expanded access to health benefits. Of the $70.8 billion, ETA
received $4 billion. As of December 31, 2009, ETA awarded 475 grants for
approximately $3.6 billion. The audit covered $2.9 billion or 73 percent, which was
awarded using the WIA formula to the 57 states and territories to provide Youth, Adult,
and Dislocated Worker employment and training activities. The audit work was
performed between March 2010 and August 2010. The audit did not involve detailed
test of internal controls or the accuracy and completeness of reported data.

Fieldwork was conducted at the two prime recipients — EDD and NYSDOL who were
awarded $489 million and $169 million, respectively. For each of the two state prime
recipients we audited two sub-recipients, which included LA CDD, San Diego County,
New York City, and Suffolk County. Fieldwork was also conducted at the ETA and
OASAM national office located in Washington, D.C. Our work was specifically focused
on the WIA grants, as the majority of ETA funds were awarded under this program. The
audit work focused on the second reporting period ending December 31, 2009, and
actions taken to enhance data quality for the third reporting period ending
March 31, 2010.

The audit was limited to five key data elements — 1) funds received, 2) expenditures, 3)
jobs created or retained, 4) project status, and 5) final report status.

Table 2: Recipients’ Award Amount and Five Key Data Elements
                                                                Job
                  Award          Funds                    Created or      Project      Final
Recipient       Amount        Received    Expenditures     Retained        Status     Report
EDD         $488,646,876   $152,097,691   $152,097,691      2,253.00         Less        No
                                                                        Than 50%
NYSDOL      $169,410,659    $66,700,770    $66,700,770        783.97         Less         No
                                                                        Than 50%



   1.	 Total Federal Amount of Recovery Act Funds Received or Invoiced (Funds
       Received/Invoiced). Grant recipients were to report the total cumulative amount
       of Recovery Act funds received from the Federal agency.

                                                   Recovery Act: Data Quality in Recipient Reporting
                                              13                      Report No. 18-10-002-03-390
                                                      U.S. Department of Labor – Office of Inspector General




    2.	 Total Federal Amount of Recovery Act Expenditures (Expenditures). Grant
        recipients were to report the total cumulative amount of Recovery Act funds
        received that were spent on projects or activities.

    3.	 Jobs Created or Retained. Recipients were to estimate the number of jobs
        created or retained by Recovery Act funds for the quarter. Grant recipients were
        to also include the number of jobs created or retained by sub-recipients and
        vendors.

    4.	 Project Status. Recipients were to report the completion status of the project,
        activity, or federally awarded contract action funded by the Recovery Act by
        selecting from among four options — not started, less than 50 percent
        completed, 50 percent or more completed, and fully completed.

    5.	 Final Report. Recipients indicated whether this was their final report — that is,
        no further §1512 reports would be submitted for the grant award.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

Methodology

The RATB 3 tasked the U.S. Department of Education’s OIG with determining whether
Recovery Act recipient processes for compiling and reporting selected data comply with
§1512 reporting requirements. The Federal agencies that participated in the audit were
Education, Health & Human Services, Homeland Security, Labor, and National Science
Foundation.

The OIG audit work was performed in accordance with the RATB Phase III Recipient
Reporting & Data Quality Review Guide. This guide outlined the specific audit
objectives, scope, methodology, and review procedures for the audit teams to help
ensure consistency in the audit approach taken in each state.

We interviewed officials from ETA and OASAM National Office to obtain a listing of
grants and contracts and an understanding of its reconciliation process between the
grants/contracts and prime recipients reporting in the FederalReporting.gov. Interviews
were also performed with the respective regional ETA office to determine their roles as
it relates to §1512 reporting.


3
  The Recovery Act created the RATB composed of 12 Inspector Generals from various agencies, and a Chairman of
the Board. The RATB issues quarterly and annual reports on Recovery Act activities to Congress and the President.

                                                            Recovery Act: Data Quality in Recipient Reporting
                                                       14                      Report No. 18-10-002-03-390
                                           U.S. Department of Labor – Office of Inspector General


We interviewed and performed walk-throughs, at the prime and sub-recipient locations,
to review and understand the design of the internal controls related to reporting §1512
requirements. We also performed limited analytical procedures of the data reported in
FederalReporting.gov for the selected key data elements to identify possible anomalies
and data problems. Our review at the sub-recipient level particularly consisted of
reviewing documentation supporting jobs created or retained, and expenses to ensure
the reasonableness of the data reported.

Sampling Plan

From its internal grant system, ETA provided a universe of Recovery Act grants
awarded as of December 31, 2009. We reviewed the universe data and discussed it
with ETA officials to gain an understanding of the reliability of the data. We determined
whether the universe was complete by comparing it to the grants extracted from
Recovery.gov. We concluded that the universe was complete as both lists contained
475 grants awarded by ETA. Ultimately, our analysis found that the extract from ETA
was sufficient to use to select recipients for testing.

To assess recipient processes for compiling and reporting selected data for compliance
with §1512 reporting requirements, we stratified the universe by program and found
WIA grants were the highest dollar amount for the audit period. The majority of these
funds were awarded using the WIA formula to the 57 states and territories to provide
Youth, Adult, and Dislocated Worker employment and training activities. Of the 57 WIA
formula grants, we then stratified the grants to focus on the top 5 dollar amounts
awarded. Overall, we judgmentally selected two prime recipients based on funds
awarded, the number of jobs created or retained, ETA monitoring, and recipient's
location.

To review documentation supporting jobs created or retained and expenses, and to
perform testing at the sub-recipient level, we judgmentally selected sub-recipients
based on funds awarded, jobs created or retained reported, lack of formal monitoring
and feedback from ETA officials.

Our sampling plan was designed to follow the RATB methodology for selecting the
recipients using a judgmental approach. Because the grants were not statistically
representative, our results and conclusions only pertain to the grants audited, and
cannot be generalized to the universe of the 475 grants awarded by ETA.

Criteria

We used the following to perform this audit:

   •	 The American Recovery and Reinvestment Act, signed on February 17, 2009,
      provided a direct response to the economic crisis. It has three immediate goals,
      (1) create new jobs and save existing ones, (2) spur economic activity and invest



                                                 Recovery Act: Data Quality in Recipient Reporting
                                            15                      Report No. 18-10-002-03-390
                                       U.S. Department of Labor – Office of Inspector General


   in long-term growth and (3) foster unprecedented levels of accountability and
   transparency in government spending.

•	 Title 2 CFR, Grants and Agreements provided OMB guidance to Federal
   agencies that helps ensure consistent and uniform government-wide policies and
   procedures for management of the agencies’ grants and agreements.

•	 On June 22, 2009, OMB issued the first guidance (Memorandum M-09-21)
   specific to implementing the §1512 reporting requirements. Two supplements to
   M-09-21 were also published. Supplement 1 listed the programs subject to §1512
   recipient reporting. Supplement 2 provided the Recipient Reporting Data Model—
   a set of specific instructions for completing the various data fields contained in
   FederalReporting.gov. On December 18, 2009, OMB issued updated guidance
   (memorandum M-10-08) that simplified the method recipients are to use for
   calculating and reporting estimated jobs.

•	 On March 22, 2010, OMB issued guidance (Memorandum M-10-14) clarifying
   which data elements require that data be limited to that quarter’s activity and
   which should be reported cumulatively. The updated guidance also instructed
   recipients on when they should classify the §1512 report as “final.”




                                             Recovery Act: Data Quality in Recipient Reporting
                                        16                      Report No. 18-10-002-03-390
                                     U.S. Department of Labor – Office of Inspector General


                                                                             Appendix C
Acronyms and Abbreviations

EDD                   State of California Employment and Development
                      Department

Department            Department of Labor

ETA                   Employment and Training Administration

LA CDD                City of Los Angeles Community Development Department

NYSDOL                New York State Department of Labor

New York City         New York City Department of Labor

OASAM                 Office of Assistant Secretary for Administration and
                      Management

OIG                   Office of Inspector General

OMB                   Office of Management and Budget

RATB                  Recovery Accountability and Transparency Board

Recovery Act          American Recovery and Reinvestment Act of 2009

§1512                 Section 1512 of the Recovery Act

San Diego County      San Diego County Workforce Partnership, Inc

Suffolk County        Suffolk County Department of Labor

WIA                   Workforce Investment Act.




                                           Recovery Act: Data Quality in Recipient Reporting
                                      17                      Report No. 18-10-002-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                   Recovery Act: Data Quality in Recipient Reporting
              18                      Report No. 18-10-002-03-390
                                   U.S. Department of Labor – Office of Inspector General


                                                                           Appendix D
Employment and Training Administration's Response




                                         Recovery Act: Data Quality in Recipient Reporting
                                    19                      Report No. 18-10-002-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                   Recovery Act: Data Quality in Recipient Reporting
              20                      Report No. 18-10-002-03-390
                                          U.S. Department of Labor – Office of Inspector General


                                                                                  Appendix E
Acknowledgements

Key contributors to this report were Mark Schwartz, (Audit Director), Lisa LaRosa,
Renata Hobbs, Charmaine Thorne, Eliacim Nieves-Perez, and Nadeem Afzal.




                                                Recovery Act: Data Quality in Recipient Reporting
                                           21                      Report No. 18-10-002-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                   Recovery Act: Data Quality in Recipient Reporting
              22                      Report No. 18-10-002-03-390
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT: 


Online:      http://www.oig.dol.gov/hotlineform.htm
Email:       hotline@oig.dol.gov

Telephone:   1-800-347-3756
             202-693-6999

Fax:         202-693-7020

Address:     Office of Inspector General
             U.S. Department of Labor
             200 Constitution Avenue, N.W.
             Room S-5506
             Washington, D.C. 20210
